APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order Denying Petition in the
Supreme Court of the State of Nevada
(January 15, 2021) . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion to Dismiss
Plaintiff’s First Amended Complaint
in the Second Judicial District Court
of the State of Nevada in and for the
County of Washoe
(May 1, 2020). . . . . . . . . . . . . . . . . App. 8
Appendix C Order Denying En Banc Reconsideration
in the Supreme Court of the State of
Nevada
(April 5, 2021) . . . . . . . . . . . . . . . App. 10

App. 1

APPENDIX A
IN THE SUPREME COURT OF THE
STATE OF NEVADA
No. 81538
[Filed January 15, 2021]
_________________________________________
RALPH LEWIS,
Petitioner,
vs.
THE SECOND JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF WASHOE;
AND THE HONORABLE SCOTT N.
FREEMAN, DISTRICT JUDGE,
Respondents,
and
POWER RESEARCH, INC.; AND
WANDA DAVIDSON,
Real Parties in Interest.
_________________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER DENYING PETITION
This original petition for a writ of prohibition
challenges a district court order denying a motion to
dismiss in a tort action. The underlying action arises
out of a dispute between two corporations engaged in
the business of fuel additives. Real parties in interest’s
(RPIs) first amended complaint alleged that petitioner,
a former employee of RPI Power Research, Inc. (Power

App. 2
Research), formed a separate company, Newport Fuel
Solutions, Inc. (Newport), to directly compete with
Power Research after he was fired from Power
Research. The complaint further alleges that petitioner
induced key Power Research employees to breach their
confidentiality and non-compete agreements by offering
them ownership interest in Newport and then used
information1 obtained from these key employees to sell
a product based on the “core chemistry” developed by
Power Research at more competitive prices. RPIs allege
that such actions violated a confidentiality and noncompete agreement petitioner signed as part of a
divorce agreement between himself and Wanda
Davidson, who owns Power Research. RPIs claim they
lost business and clients as a result of petitioner’s
actions.
The district court denied petitioner’s motion to
dismiss for lack of personal jurisdiction, finding that as
a Nevada owner, director, and officer purposely
directing harm toward a Nevada corporation, petitioner
was subject to personal jurisdiction in Nevada. It
further found that petitioner should have reasonably
anticipated being subject to personal jurisdiction in
Nevada based on Nevada choice-of-law provisions in
the confidentiality and non-compete agreements at
issue. Petitioner now seeks a writ of prohibition,
arguing that the district court acted in excess of its

1

This information allegedly includes Power Research’s formulas
and blending methods for its products, marketing strategies and
analyses, sales tactics, as well as confidential information related
to its customers, including information regarding pricing, contacts,
and sale history that it stores in a confidential database.

App. 3
jurisdiction by denying his motion to dismiss and
finding that he is subject to personal jurisdiction in
Nevada.
“A writ of prohibition is available to arrest or
remedy district court actions taken without or in excess
of jurisdiction.” Viega GmbH v. Eighth Judicial Dist.
Court, 130 Nev. 368, 373, 328 P.3d 1152, 1156 (2014).
Writ relief is an extraordinary remedy, and this court
typically exercises its discretion to consider a writ
petition only when there is no plain, speedy, and
adequate remedy in the ordinary course of law. Id.
While an appeal is generally considered to be an
adequate legal remedy precluding writ relief, Pan v.
Eighth Judicial Dist. Court, 120 Nev. 222, 224, 88 P.3d
840, 841 (2004), the right to appeal is inadequate to
correct an invalid exercise of personal jurisdiction,
Fulbright & Jaworski v. Eighth Judicial Dist. Court,
131 Nev. 30, 35, 342 P.3d 997, 1001 (2015). Because
petitioner challenges the district court’s ruling
regarding personal jurisdiction, we elect to exercise our
discretion and consider this writ petition.2
Petitioner argues that the district court does not
have personal jurisdiction over him because neither he
nor any of Power Research’s former employees have
any contacts with or performed any work in Nevada,
and none of the operative facts occurred in Nevada. He
further argues that owning and operating a Nevada

2

Because the district court has not yet entered a written order
resolving RPIs’ pending motion for leave to file a second amended
complaint, and because we reject this petition on other grounds, we
need not address RPIs’ arguments regarding this issue.

App. 4
corporation is insufficient on its own to establish
personal jurisdiction, and that his corporation being
incorporated in Nevada had no bearing on the claims
against him. Lastly, petitioner argues that the Nevada
choice-of-law provisions are insufficient on their own to
establish jurisdiction in the absence of minimum
contacts.
Upon a challenge to personal jurisdiction, a plaintiff
has the burden of establishing a prima facie showing of
personal jurisdiction. Trump v. Eighth Judicial Dist.
Court, 109 Nev. 687, 692, 857 P.2d 740, 743 (1993). In
determining whether a prima facie showing has been
made, the district court accepts properly supported
proffers of evidence by a plaintiff as true and does not
act as a fact finder. Id. at 693, 857 P.2d 744. “[W]hen
factual disputes arise in a proceeding that challenges
personal jurisdiction, those disputes must be resolved
in favor of the plaintiff.” Levinson v. Second Judicial
Dist. Court, 103 Nev. 404, 407, 742 P.2d 1024, 1026
(1987). “As a question of law, the district court’s
determination of personal jurisdiction is reviewed de
novo, even in the context of a writ petition.” Viega
GmbH, 130 Nev. at 374, 328 P.3d at 1156.
“[S]pecific jurisdiction is proper only where the
cause of action arises from the defendant’s contacts
with the forum.” Fulbright, 131 Nev. at 37, 342 P.3d at
1002 (internal quotation marks omitted). In analyzing
whether specific personal jurisdiction exists in a tort
action, such as here, courts apply the “effects test”
derived from Calder v. Jones, 465 U.S. 783 (1984),
which considers whether the defendant “(1) committed
an intentional act, (2) expressly aimed at the forum

App. 5
state, (3) causing harm that the defendant knows is
likely to be suffered in the forum state.” Tricarichi v.
Coop. Rabobank, U.A., 135 Nev. 87, 91, 440 P.3d 645,
650 (2019) (quoting Picot v. Weston, 780 F.3d 1206,
1213-14 (9th Cir. 2015)). The proper focus of this test is
“on the relationship between the defendant, the forum,
and the litigation, and ‘the defendant’s suit-related
conduct,’ which ‘must create a substantial connection
with the forum.”’ Id. at 92, 440 P.3d at 650 (quoting
Walden v. Fiore, 571 U.S. 277, 283-84 (2014)).
We conclude that the district court correctly
determined that real parties in interest have
established a prima face showing of personal
jurisdiction under Calder. By incorporating Newport in
Nevada and using an ownership interest in the
company to induce employees from Power Research to
breach their confidentiality and non-compete
agreements, petitioner committed intentional acts
expressly aimed at Nevada that caused harm that
petitioner knew was likely to be suffered in the forum
state. See Tricarachi, 135 Nev. at 91, 440 P.3d at 650;
see also Levinson, 103 Nev. 407, 742 P.2d 1026 (noting
that courts should resolve disputed facts resolved in
favor of plaintiff on personal jurisdiction issues). And,
while not dispositive on its own, the Power Research
employees’ contracts all had Nevada choice-of-law
provisions, and petitioner knew of the provisions
because he signed them either on behalf of Power
Research or as a witness during the time he was
employed by the company. See Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 482 (1985) (holding that
while choice-of-law provisions do not establish personal
jurisdiction, they should not be ignored as part of

App. 6
personal jurisdictional analyses). This is dissimilar to
cases finding no personal jurisdiction under the Calder
test, as real parties in interest here are not petitioner’s
sole contact with the forum, see, e.g., Walden v. Fiore,
571 U.S. 277, 285 (2014) (“[T]he plaintiff cannot be the
only link between the defendant and the forum.
Rather, it is the defendant’s conduct that must form
the necessary connection with the forum State that is
the basis for its jurisdiction over him.”), and thus,
petitioner is subject to personal jurisdiction in Nevada.
The district court improperly denied petitioner’s
motion to dismiss based on Consipio Holding, BV v.
Carlberg, 128 Nev. 454, 282 P.3d 751 (2012)
(concluding that an officer or director who intends to
harm a Nevada corporation is subject to personal
jurisdiction in Nevada), because petitioner was not
sued in his capacity as an officer or director of
Newport. However, for the reasons outlined above, we
ultimately conclude that the district court did not err
by denying the motion to dismiss. See SaavedraSandoval v. Wal-Mart Stores, Inc., 126 Nev. 592, 599,
245 P.3d 1198, 1202 (2010) (“This court will affirm a
district court’s order if the district court reached the
correct result, even if for the wrong reason.”).
Accordingly, we
ORDER the petition DENIED.
/s/ Parraguirre, J.
Parraguirre
/s/ Stiglich, J.
Stiglich

App. 7
/s/ Silver, J.
Silver
cc: Hon. Scott N. Freeman, District Judge
Holley Driggs/Reno
Bohreer Law Firm PLLC
Holley Driggs/Las Vegas
Fennemore Craig P.C./Reno
Burford Perry, LLP
Washoe District Court Clerk

App. 8

APPENDIX B
CODE: 3370
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA
IN AND FOR THE COUNTY OF WASHOE
Case No.: CV18-02401
Dept. No.: B9
[Filed: May 1, 2020]
_____________________________________________
POWER RESEARCH, INC., A NEVADA
)
CORPORATION; AND WANDA DAVIDSON, )
AN INDIVIDUAL,
)
)
Plaintiffs,
)
)
v.
)
)
NEWPORT FUEL SOLUTIONS, INC., A
)
NEVADA CORPORATION; AND
)
RALPH LEWIS, AN INDIVUDAL,
)
)
Defendant.
)
_____________________________________________)
ORDER DENYING MOTION TO DISMISS
PLAINTIFF’S FIRST AMENDED COMPLAINT
This matter came on for hearing February 26, 2020.
At the time of the hearing, the Court was in receipt of
Defendant RALPH LEWIS’ (hereinafter “Lewis”)

App. 9
Motion to Dismiss Plaintiff’s First Amended Complaint
filed September 9, 2019. Plaintiffs POWER
RESEARCH, INC., and WANDA DAVIDSON
(hereinafter “PRI” and “Davidson”) filed their
Opposition to Motion to Dismiss Plaintiff’s First
Amended Complaint on October 3, 2019. Lewis
thereafter filed a Reply on October 14, 2019. This
motion was submitted to the Court for decision on
October 14, 2019.
BACKGROUND
This matter involves a dispute between two
corporations that engage in the business of
manufacturing and selling fuel additives. Specifically,
this matter arises (1) from an alleged tortious
interference with Michael H., Kalliope H., and Tony
Y.’s employment with PRI and (2) from an alleged
tortious interference with the confidentiality and noncompete agreements between PRI and Michael H.,
Kalliope H., and Tony Y.
In 1985, Davidson formed Power Research Inc.
(“PRI”). Opp’n. p. 2:26. On November 3, 1992, Davidson
incorporated PRI as a Nevada for-profit corporation. Id.
p. 2:28 and 3:1. In 1985, Davidson and Lewis married,
and Lewis subsequently joined PRI as an employee. In
1986 and 2015 Lewis signed confidentiality and noncompete agreements which included a Nevada choiceof-law clause. Id. p. 3:1-4.
As part of his job responsibilities, Lewis had PRI’s
Sale Team, which included, Michael H., Kalliope H.,
and Tony Y., sign confidentiality and non-compete
agreements. Each of the confidentiality and non-

App. 10
compete agreements included a Nevada choice-of-law
clause and Lewis signed each these agreements on
behalf of PRI or as a witness. Id. p. 3:5-10.
Lewis was fired from PRI on August 29, 2016. Id. p.
3:10. In October 2017, Davidson and Lewis entered into
an Agreement Incident to Divorce which adopted and
extended his November 2015 confidentiality and noncompete agreement. Id. p. 4:4-14.
In early 2018, Lewis created a Nevada Corporation,
Newport Fuel Solutions, Inc. (“Newport”). Opp’n. p. 2:23. Following the formation of Newport, Lewis began
receiving confidential information from Michael H.,
Kalliope H., and Tony Y regarding PRI. All three PRI
employees thereafter resigned from their positions at
PRI and began to work for Newport. Id. p. 6:11-17 and
7:1-4.
In the initial Complaint, Davidson and PRI alleged
claims of tortious interference with contracts, tortious
interference with prospective economic advantage,
trade secret violation, and unfair competition claims
against Newport. Davidson and PRI then filed their
First Amended Complaint (“FAC”), alleging the same
claims, but added Lewis as a party to the instant suit.
Lewis’ Motion to Dismiss Plaintiff’s First Amended
Complaint followed. Upon careful review of the record
and pleadings, the Court DENIES Lewis’ Motion to
Dismiss Plaintiffs First Amended Complaint.
STANDARD OF REVIEW
A plaintiff has a burden to produce evidence
establishing “a prima facie showing of jurisdiction”

App. 11
when a defendant challenges personal jurisdiction.
Consipio Holding, BV v. Carlberg, 128 Nev. 454, 457
(2012). The Plaintiff bears the burden of proving that
a defendant is subject to jurisdiction in accordance with
Nevada’s long-arm statute and principles of due
process. Tricarichi v. Coop. Rabobank, U.A., 135 Nev.
Adv. Op. 11, 440 P.3d 645, 649 (2019). Pursuant to
NRS 14.065(1), Nevada’s long-arm statute permits a
court to exercise personal jurisdiction over a
nonresident defendant to the extent the exercise of
jurisdiction does not violate constitutional due process.
Constitutional due process “requires ‘minimum
contacts’ between the defendant and the forum state
‘such that the maintenance of the suit does not offend
traditional notions of fair play and substantial justice.’”
Trump v. District Court, 109 Nev. 687, 698 (1993).
“[T]he defendant’s conduct and connection with the
forum State [must be] such that he should reasonably
anticipate being haled into court there.” Id.
Furthermore, “a district court can exercise personal
jurisdiction over nonresident officers and directors who
directly harm a Nevada Corporation.” Consipio, 128
Nev. at 457.
DISCUSSION
The issue before this Court is whether it has
personal jurisdiction over Lewis. Davidson asserts the
Court’s exercise of personal jurisdiction over Lewis is
proper because Lewis has sufficient minimum contacts
with Nevada and her claims arise from those contacts.
However, Lewis contends no specific jurisdiction exists
over him in Nevada because (1) the operative facts of

App. 12
the claim occurred outside of Nevada; (2) ownership in
a Nevada Corporation does not confer jurisdiction;
(3) the choice-of-law provisions do not confer
jurisdiction; and (4) Newport’s Nevada citizenship does
not confer jurisdiction.
A court may exercise specific jurisdiction over a
nonresident defendant where the cause of action
“arises from the defendant’s contacts with the forum.”
Trump v. District Court, 109 Nev. 687, 699. The Ninth
Circuit established a three-part test to determine
whether specific personal jurisdiction is appropriate:
(1) The non-resident defendant must purposefully
direct his activities or consummate some
transaction with the forum or resident thereof; or
perform some act by which he purposefully avails
himself of the privilege of conducting activities in
the forum, thereby invoking the benefits and
protections of its laws; (2) the claim must be one
which arises out of or relates to the defendant’s
forum-related activities; and (3) the exercise of
jurisdiction must comport with fair play and
substantial justice, i.e. it must be reasonable.
Schwarzenegger v. Fred Martin Motor Co., 374 F.3d
797, 802 (9th Cir. 2004). In contract actions, a plaintiff
must show a defendant purposefully availed himself of
the benefits and protections of the forum state’s laws.
Id. However, when specific jurisdiction is based upon a
tort claim, the Nevada Supreme Court will look to the
“effects test” outline in Calder v. Jones, 465 U.S. 783
(1984). Under Calder, a nonresident defendant is
subject to personal jurisdiction based on intentional
conduct committed outside of the forum that was

App. 13
calculated to cause injury to the plaintiff within the
forum. Id. at 791. Calder requires that a defendant has
“(1) committed an intentional act, (2) expressly aimed
at the forum state, (3) causing harm that the defendant
knows is likely to be suffered in the forum state.” Dole
Food Co., Inc. v. Watts, 303 F.3d 1104, 1111 (9th Cir.
2002).
Davidson argues Lewis purposefully availed himself
of conducting activities in Nevada by forming Newport
and becoming an owner, officer, and director of the
Nevada corporation. Opp’n. p. 10:15-19. Davidson
further argues that Lewis used the stock in his Nevada
corporation to induce Michael H., Kalliope H., and
Tony Y. to terminate their employment with PRI in
addition to violating their confidentiality and noncompete agreements. Id. p. 10:19-21. Davidson asserts
Lewis’ tortious interference with the contractual and
employment relationships of Michael H., Kalliope H.,
and Tony Y., was for the sole purpose of causing injury
to a Nevada Corporation. Id. p. 10:21-24.
Lewis argues the claims at issue in this case did not
occur in Nevada and as such, he cannot be subject to
personal jurisdiction in this state. Specifically, Lewis
asserts that Michael H., Kalliope H., and Tony Y. live
in Greece and China. Mot. p. 6:24-26. Lewis contends
that these individuals were “recruited/solicited/
contacted” in Greece and China and none of them live,
work or were ever contacted in the state of Nevada. Id.
p. 6:27-28. Lewis further argues that the same is true
for the claims relating to his contacts with customers.
Lewis asserts that Newport sells to customers who are
located in Greece and China, not Nevada, and

App. 14
therefore, absent a Nevada nexus, no specific
jurisdiction in Nevada exists. Id. p. 7:1-10. Lewis next
argues the information pertaining to the trade secrets
and proprietary information allegedly stolen, were not
disclosed, used, modified or sold in Nevada. Id. p. 7:1115. Lewis posits that as no Nevada nexus exists, there
are no minimum contacts that subject him to
jurisdiction in Nevada.
The court in Consipio reasoned that because
Nevada corporations are Nevada citizens, purposefully
directing harm toward a Nevada corporation
establishes sufficient minimum contacts with Nevada
for the exercise of personal jurisdiction. Consipio
Holding, BV v. Carlberg, 128 Nev. 454, 459 (2012).
In this case, the facts as alleged, Lewis is the owner,
officer and director of Newport, a Nevada corporation,
whom purposefully directed harm toward another
Nevada corporation. In his former role as vice president
of PRI, Lewis obtained confidential trade secret
information. Through the use of shares in Newport,
Lewis induced PRI’s employees to breach their own
non-compete and confidentiality agreements with PRI.
Therefore, this Court finds that Lewis established
sufficient minimum contacts with Nevada for the
exercise of personal jurisdiction through his role as an
officer and director of Newport, and as a former
employee of PRI.
Furthermore, this Court’s exercise of personal
jurisdiction comports with traditional notions of fair
play and substantial justice. When determining
whether the exercise of personal jurisdiction is

App. 15
reasonable the court looks to the following factors
enumerated in Consipio:
(1) “the burden on the defendant” of defending an
action in the foreign forum, (2) “the forum state’s
interest in adjudicating the dispute,” (3) “the
plaintiffs interest in obtaining convenient and
effective relief,” (4) “the interstate judicial system’s
interest in obtaining the most efficient resolution of
controversies,” and (5) the “shared interest of the
several States in furthering fundamental
substantive social policies.”
Id. at 459. (quoting Emetrio v. Clint Hurt and Assocs.,
114 Nev. 1031, 1036-37 (1998)).
The Court finds (1) Lewis is already indirectly
defending against Plaintiffs claims in this lawsuit as
an owner, officer, and director of Newport; (2) the state
of Nevada has an interest in protecting is corporate
citizens in adjudicating these types of disputes;
(3) Plaintiffs have a clear interest in obtaining
convenient and effective relief in one forum; (4) the
interstate judicial system has an interest in promoting
judicial economy and having Plaintiffs claims heard in
one forum; and (5) the dispute lies between two Nevada
corporations and owners, officers and directors of those
corporations, as such, there are no social policies that
differ between the states of Nevada and California that
would be negatively impacted by Nevada exercising
personal jurisdiction in this case.
Moreover, the confidentiality and non-compete
agreements that Lewis signed on his behalf, as a
witness, and on behalf of PRI all contained a Nevada

App. 16
choice-of-law provision. In Trump v. Eighth Judicial
Dist. Court of State of Nev. In and for County of Clark,
109 Nev. 687 (1993), a trust agreement contained a
Nevada choice-of-law clause. In creating a Nevada
trust with a Nevada choice-of-law provision, the Court
found that Trump should have reasonably anticipated
being hauled into court in Nevada. See Gates Learjet
Corp. v. Jensen, 743 F.2d 1325, 1331 (9th Cir.1984),
cert. denied, 471 U.S. 1066, 105 S.Ct. 2143, 85 L.Ed.2d
500 (1985).
Following that precedent, this Court finds after
signing two of his own confidentiality and non-compete
agreements and, signing in his role as Vice President
of PRI, the confidentiality and non-compete agreements
of Michael H., Kalliope H., and Tony Y., Lewis should
have reasonably anticipated that he would be subject
to personal jurisdiction in Nevada.
Accordingly, and good cause appearing, the Court’s
order is as follows:
IT IS HEREBY ORDERED that Defendants
NEWPORT FUEL SOLUTIONS, INC., and RALPH
LEWIS’ Motion to Dismiss Plaintiff’s First Amended
Complaint is DENIED.
IT IS SO ORDERED.
DATED: This 1st day of May, 2020.
/s/
DISTRICT JUDGE

App. 17
CERTIFICATE OF SERVICE
Pursuant to NRCP 5(b), I certify that I am an
employee of the Second Judicial District Court of the
State of Nevada, County of Washoe; that on this 1st day
of May, 2020, I deposited for mailing with the United
States Postal Service in Reno, Nevada, a true copy of
the attached document addressed to:
[NONE]
Further, I certify that on the 1st day of May, 2020, I
electronically filed the foregoing with the Clerk of the
Court electronic filing system, which will send notice of
electronic filing to the following:
JOHN TENNERT, ESQ. for POWER RESEARCH,
INC. et al
CLARK VELLIS, ESQ. for NEWPORT FUEL
SOLUTIONS, INC., RALPH LEWIS
JAMES PUZEY, ESQ. for NEWPORT FUEL
SOLUTIONS, INC., RALPH LEWIS
/s/
Judicial Assistant

App. 18

APPENDIX C
IN THE SUPREME COURT OF THE
STATE OF NEVADA
No. 81538
[Filed: April 5, 2021]
_________________________________________
RALPH LEWIS,
Petitioner,
vs.
THE SECOND JUDICIAL DISTRICT
COURT OF THE STATE OF NEVADA,
IN AND FOR THE COUNTY OF WASHOE;
AND THE HONORABLE SCOTT N.
FREEMAN, DISTRICT JUDGE,
Respondents,
and
POWER RESEARCH, INC.; AND
WANDA DAVIDSON,
Real Parties in Interest.
_________________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER DENYING EN BANC
RECONSIDERATION
Having considered the petition on file herein, we
have concluded that en banc reconsideration is not
warranted. NRAP 40A. Accordingly, we
ORDER the petition DENIED.

App. 19
/s/ Hardesty, C.J.
Hardesty
/s/ Parraguirre, J.
Parraguirre

/s/ Stiglich, J.
Stiglich

/s/ Cadish, J.
Cadish

/s/ Silver, J.
Silver

/s/ Pickering, J.
Pickering

/s/ Herndon, J.
Herndon

cc: Hon. Scott N. Freeman, District Judge
Holley Driggs/Reno
Bohreer Law Firm PLLC
Holley Driggs/Las Vegas
Fennemore Craig P.C./Reno
Burford Perry, LLP
Washoe District Court Clerk

